No. 18A1342

In The
SUPREME COURT OF THE UNITED STATES

JAVIER SANCHEZ, GREGORY CASORSO, and MICHAEL MARR,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.

APPLICATION FOR EXTENSION OF TIME TO
FILE PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Before the Honorable Elena Kagan

DENNIS P. RIORDAN
Counsel of Record
RIORDAN & HORGAN
1611 Telegraph Avenue
Suite 806
Oakland, CA 94612
Attorney for Petitioners
SANCHEZ, CASORSO, and MARR

To the Honorable Elena Kagan, Associate Justice of the United States
Supreme Court and Circuit Justice for the Ninth Circuit:
This Court previously granted petitioners Sanchez, Casorso and Marr a
thirty-day extension of time, to and including August 1, to file their petition for a
writ of certiorari in this matter. Pursuant to 28 U.S.C. § 2101(c) and Rule 13.5 of
the Rules of this Court, petitioners hereby move for an additional twenty-nine day
extension of time, to and including August 30, 2019, to file the petition. As set
forth further below, this motion is founded primarily on petitioners’ association of
new counsel, Jeffrey Fisher, for purposes of preparing and presenting the petition
to this Court.
Procedural History
A three judge panel of the Ninth Circuit Court of Appeals filed its initial
decision denying petitioners’s consolidated appeals from their federal court
convictions in this matter on January 25, 2019. (See Exhibit A [January 25th
decision].) Petitioners timely filed a petition for rehearing en banc as to that
decision.
On April 3, 2019, the same Ninth Circuit panel issued an order denying the
petition for rehearing en banc. (See Exhibit B [April 3rd order].) Accordingly,
petitioner’s time to petition for certiorari in this Court was initially scheduled to
1

expire on July 2, 2019. More than 10 days prior to that date, petitioners moved this
Court for a thirty-day extension of time, to and including August 1, 2019, to file
the petition. On June 19, 2019, this Court granted the initial extension request.
(See Exhibit C [Court’s June 19th letter order].)
The present application is being filed more than 10 days before the present
August 1, 2019 due date. See Supreme Court Rules 13.5 and 30.2.
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).
The Decision Below
The Ninth Circuit panel’s decision affirms petitioners’ convictions for
conspiring to violate the Sherman Antitrust Act by means of bid-rigging at home
foreclosure auctions, United States v. Javier Sanchez, Gregory Casorso and
Michael Marr, Ninth Cir. Nos. 17-10519, 17-10528, and 18-10113. The case
raises important issues concerning, among other things, the scope and
interpretation of the Sherman Antitrust Act. Specifically, criminal liability for
violating the Act requires a finding that the defendants’ conduct constituted an
unreasonable restraint of trade. The government secured petitioners’ convictions at
trial on the theory that their conduct was unreasonable per se, and without
permitting factual inquiry into whether it was actually an unreasonable restraint.
Petitioners contend that their convictions thus rested on application of a
2

conclusive presumption in violation of their Fifth and Sixth Amendment rights to
due process and to a jury trial, as recognized and elucidated in relatively recent
decisions of this Court. See, e.g., Carella v. California, 491 U.S. 263, 265-66
(1989); United States v. Gaudin, 515 U.S. 506, 514 (1995).
This Court has yet to address the doctrinal conflict between these recent
decisions and its much older precedent that permitted application of the per se rule
in a criminal Sherman Act prosecution. See United States v. Socony-Vacuum Oil
Co., 310 U.S. 150 (1940). Petitioners believe that review of the panel’s decision
by means of certiorari is necessary to resolve this fundamental conflict.
Basis for Application and Declaration of Counsel
In support of this application, Dennis P. Riordan hereby declares under
penalty of perjury as follows:
1. I am counsel of record for petitioners Sanchez, Casorso, and Marr.
2. I seek the twenty-nine day extension of time requested herein primarily
because, since filing our previous request, we have associated Jeffrey Fisher as
new counsel for petitioners. Mr. Fisher is a professor of law at Stanford University
and is highly experienced in preparing and presenting legal briefing and oral
argument in this Court.
3. This motion is also founded on the extraordinary press of business in this
3

office. Specifically, since submitting our previous extension request on June 17,
2019, we have been required to file, and have filed, a traverse and extensive
related memorandum in support of a federal petition for a writ of habeas corpus
challenging our client’s state court convictions for second degree murder and
related firearm enhancements resulting in a sentence of twenty-five years to life in
prison, People v. Moore, No. Dist. of Cal. No. 3:18-cv- 03523-JCS. During this
period, I have also been required to devote very substantial time to preparing a
return to the state’s denial of a writ petition challenging our client’s state
conviction for second degree murder and related gang and firearm enhancements
resulting in a sentence of 50 years to life in state prison, In the Matter of Marcos
Reis-Campos, San Francisco Superior Ct. Writ No. 7255 (due July 19, 2019); a
reply in support of an appeal from a superior court order and judgment dismissing
a complaint against the State of California seeking declaratory and injunctive
relief in connection with a public school's application of a state statute to deny our
client, a registered sex offender, all access to a public school attended by his
child, Doe v. California, et al., Second App. Dist. of Cal. No. B290587 (due July
24, 2019); and an opening brief in support of an appeal challenging our client’s
convictions and enhancement findings for sexual offenses involving minors
resulting in a sentence of 270 years to life, People v. Linh Nguyen, Sixth App.
4

District of Cal. No. H046507 (due August 7, 2019).
4. For the foregoing reasons, I respectfully request that an order be entered
extending the time to petition for certiorari in the above-captioned matter to and
including August 29, 2019.
Executed this 15th day of July, 2019, at San Francisco, California.

Dennis P. Riordan
Counsel of Record for
Petitioners Sanchez, Casorso, and Marr

5

